         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                          Catalyst for Improving the Environment


Evaluation Report




       Improvements Needed to Validate 

       Reported ENERGY STAR Benefits 

       Report No. 09-P-0061           


       December 17, 2008          

Report Contributors:                               Laurie Adams
                                                   Natasha Besch-Turner
                                                   Daniel Carroll
                                                   Jerri Dorsey
                                                   Jeffrey Harris




Abbreviations

CCAP          Climate Change Action Plan
CFLs          Compact Fluorescent Lights
DOE           Department of Energy
DSM           demand-side management
EPA           U.S. Environmental Protection Agency
kWh           kilowatt hours
MMTCE         million metric tons of carbon equivalent
OIG           Office of Inspector General
PBC           public benefits charge




Cover art:	      The illustrations depict the four primary components of EPA’s
                 ENERGY STAR program, from left: products, commercial,
                 industrial, and residential (from EPA).
                       U.S. Environmental Protection Agency 	                                            09-P-0061
                                                                                                  December 17, 2008
                       Office of Inspector General


                       At a Glance

                                                                          Catalyst for Improving the Environment


Why We Did This Review           Improvements Needed to Validate Reported
We initiated this review to      ENERGY STAR Benefits
examine the validity and
accuracy of the reported          What We Found
energy savings for the U.S.
Environmental Protection         Reported ENERGY STAR benefits represented one-half of EPA’s total
Agency’s (EPA’s) ENERGY          greenhouse gas emissions avoided in 2006. ENERGY STAR benefits are a major
STAR program. This was part      component of efforts reducing such emissions. The accuracy of the program’s
of our agenda to assess new      reported energy savings is important in monitoring the United States’ efforts to
approaches to environmental
                                 reduce greenhouse gas emissions.
protection. We specifically
sought to determine whether
the savings reported were        We found the ENERGY STAR program’s reported savings claims were inaccurate
valid and fully supportable.     and the reported annual savings unreliable. We identified several deficiencies
                                 with the shipment data and the process used in calculating benefits. Deficiencies
Background                       included the lack of a quality review of the data collected; reliance on estimates,
                                 forecasting, and unverified third party reporting; and the potential inclusion of
ENERGY STAR is a                 exported items. Also, EPA included savings for one Department of Energy (DOE)
voluntary program designed to    product that DOE also claimed.
help businesses and
individuals enhance their        Additionally, sales of formerly qualified products are used to determine ENERGY
energy efficiency. In 2006,      STAR’s market transformation benefits, but we found that this benefit was
the ENERGY STAR                  computed inconsistently. Also, the methodology used to compute the ENERGY
program reported avoiding a      STAR commercial sector benefits uses unverified assumptions.
total of 37.6 million metric
tons of carbon equivalent. It     What We Recommend
further reported that ENERGY
STAR helped prevent               We recommended that EPA:
greenhouse gas emissions
equivalent to those from
                                     •	 Establish and implement improved quality controls.
25 million vehicles while
savings Americans $14 billion        •	 Develop and consistently apply a data-driven methodology to compute
on their energy bills.                  market transformation effects.
                                     •	 Validate the model for calculating the benefits of the ENERGY STAR
For further information,
                                        commercial sector to ensure it accurately reflects the sector’s impacts.
contact our Office of
Congressional, Public Affairs,
and Management at                EPA disagreed with many of our conclusions, but stated it had implemented some
(202) 566-2391.                  of the recommendations. However, some of EPA’s planned actions do not meet
                                 the intent of our recommendations, and we consider these recommendations open
To view the full report,
click on the following link:
                                 and unresolved.
www.epa.gov/oig/reports/2009/
20081217-09-P-0061.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                        December 17, 2008

MEMORANDUM

SUBJECT:	              Improvements Needed to Validate Reported ENERGY STAR Benefits
                       Report No. 09-P-0061


FROM:	                 Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:	                   Robert J. Meyers
                       Principal Deputy Assistant Administrator
                       Office of Air and Radiation


This is our report on the ENERGY STAR benefits evaluation conducted by the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). This report
contains findings that describe the problems the OIG has identified and corrective actions the
OIG recommends. This report represents the opinion of the OIG and does not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $538,867.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at 202-566-0827;
or Jeffrey Harris, Director of Cross Media, at 202-566-0831 or harris.jeffrey@epa.gov.
Improvements Needed to Validate                                                                                            09-P-0061
Reported ENERGY STAR Benefits



                                  Table of Contents 


Chapters
   1	   Introduction ........................................................................................................     1         


                Purpose ......................................................................................................    1                 

                Background .................................................................................................      1                 

                Noteworthy Achievements...........................................................................                3                 

                Scope and Methodology..............................................................................               4                 

                Prior Review ...............................................................................................      5                 


   2	   Inaccurate and Unsupported Data Used to Calculate 

        2006 ENERGY STAR Product Annual Benefits ...............................................                                  6             


                Process Used to Calculate Product Sector Savings....................................                              6

                Shipment Totals Used in Savings Calculations Are Unreliable ...................                                   8

                Other Factors Contribute to Uncertainties…………………………………….                                                         10 

                DOE Product Included in EPA ENERGY STAR Reported Savings ............                                            12 

                Conclusion...................................................................................................    13                 

                Recommendation ........................................................................................          13                 

                Agency Comments and OIG Evaluation......................................................                         14 


   3	   ENERGY STAR Market Transformation Benefits 

        Calculated Inconsistently ..................................................................................             15     


                Market Transformation Caused by Innovations in Efficiency.......................                                 15 

                Market Transformation Benefits Calculated with Assumed Data ................                                     16 

                Market Transformation Obscures Program Accomplishments ....................                                      17 

                Conclusion...................................................................................................    18                 

                Recommendation ........................................................................................          18         

                Agency Comments and OIG Evaluation......................................................                         18 


   4	   ENERGY STAR Commercial Benefits Model Utilizes 

        Unverified Assumptions ...................................................................................               20     


                Formula Used to Calculate Commercial Sector Savings.............................                                 20 

                Methodology Not Tailored for ENERGY STAR ……. ..................................                                  20 

                Formula Methodologies and Assumptions Need to Be Verified ..................                                     23 

                Conclusion...................................................................................................    23                 

                Recommendation ........................................................................................          24                 

                Agency Comments and OIG Evaluation......................................................                         24 


   Status of Recommendations and Potential Monetary Benefits..............................                                       25     





                                                       - continued -
Improvements Needed to Validate                                                                                            09-P-0061
Reported ENERGY STAR Benefits




Appendices
   A    Logic Model for ENERGY STAR Products ......................................................                              26    


   B    Logic Model for ENERGY STAR Commercial & Industrial Programs ...........                                                 27    


   C    Details on Scope and Methodology..................................................................                       28    


   D    Agency Comments and OIG Evaluation...........................................................                            30    


   E    Distribution .........................................................................................................   43    

                                                                                                   09-P-0061





                                           Chapter 1
                                            Introduction
Purpose
                   We initiated this review to examine the validity and accuracy of the reported
                   energy savings for the U.S. Environmental Protection Agency’s (EPA’s)
                   ENERGY STAR program. This was part of our agenda to assess new approaches
                   to environmental protection. We specifically sought to determine whether the
                   savings reported in 2006 were valid and fully supportable.

Background
                   In 1990, Section 103(g) of the Clean Air Act directed the EPA Administrator to
                   “conduct a basic engineering research and technology program to develop,
                   evaluate, and demonstrate non regulatory strategies and technologies for air
                   pollution prevention.” In 1992, EPA’s Office of Air and Radiation established the
                   ENERGY STAR Product Labeling Program (the ENERGY STAR program) as an
                   innovative approach to environmental protection. Congress formally authorized
                   the ENERGY STAR program in the Energy Policy Act of 2005.1

                   ENERGY STAR is a voluntary program designed to help businesses and
                   individuals protect the environment through superior energy efficiency. The
                   ENERGY STAR program was designed to overcome selected market barriers.
                   The program was first introduced to recognize and promote energy-efficient
                   computers. It has since grown to cover many additional consumer products and
                   services. In 1996, EPA partnered with the Department of Energy (DOE) to
                   promote the ENERGY STAR label and broaden the range of products covered.2

                   The ENERGY STAR program is one part of a larger U.S. government-wide
                   agenda to address climate change. In 2002, the President announced a goal of
                   reducing America’s greenhouse gas intensity 18 percent by 2012. EPA’s
                   programs are expected to contribute over 70 percent of the emissions reductions
                   needed to meet the President’s greenhouse gas intensity goal. ENERGY STAR is
                   the most significant of the EPA's greenhouse gas avoidance programs. In 2006,
                   the program accounted for over 50 percent of EPA's contribution. The success of
                   ENERGY STAR is therefore central to whether the United States will meet the
                   President’s goal for reducing greenhouse gas intensity.




1
    Public Law 109-58-Aug. 8, 2005; Subtitle C-Energy Efficient Products, Sec. 131. ENERGY STAR program.
2
    A Memorandum of Cooperation was signed jointly on May 29, 1996.


                                                       1

                                                                                                09-P-0061



                The ENERGY STAR program reported avoiding a total of 37.6 million metric
                tons of carbon equivalent (MMTCE) in 2006. According to the EPA, the program
                helped prevent greenhouse gas emissions equivalent to those from 25 million
                vehicles while saving Americans $14 billion on their energy bills. ENERGY
                STAR has four program sectors: products, commercial, industrial, and residential.
                The 2006 reported carbon emissions avoided by program sector are illustrated in
                Figure 1-1; the paragraphs that follow describe the four sectors.
                Figure 1-1: Carbon Emissions Avoided by Sector for 2006




                            Industrial 17.3%


                  Residential
                     1.1 %


                                                        Commercial
                                                          40.4 %

                                     Products 41.2%




                Source: OIG Analysis of ENERGY STAR 2006 Annual Report




                 Products

                According to ENERGY STAR staff the product sector is designed to promote
                energy-efficient products for purchase by consumers. This sector is the original
                component of EPA’s ENERGY STAR program and is still the most recognizable
                part of the program.3 EPA reports that approximately 1,700 manufacturers are
                using the ENERGY STAR label on over 40,000 product models across more than
                50 product categories. Annually, consumers are reportedly purchasing
                approximately 300 million ENERGY STAR-qualified products and have invested
                in over 2 billion products since 1992. ENERGY STAR reported within its 2006
                annual report that the product sector was responsible for 15.5 MMTCE emissions
                avoided.




3
 A logic model illustrating how the ENERGY STAR program is designed to promote energy efficiency among
consumer products is depicted in Appendix A.


                                                       2

                                                                                                09-P-0061



                 Commercial and Industrial Sectors

                The commercial and industrial sectors are designed to promote superior corporate
                energy management approaches and provide partners guidance on assessing
                current energy use and developing plans that will lead to energy reductions and
                overall energy efficiency. Annually, commercial and industrial buildings use
                approximately $200 billion worth of electricity and natural gas, which results in
                nearly half of the U.S. greenhouse gas emissions. ENERGY STAR reported
                within the 2006 annual report that the commercial and industrial sectors avoided
                combined total emissions of 21.7 MMTCE.4 EPA reported that increasing energy
                prices and greater concern for the environment and global warming have recently
                increased interest and participation in ENERGY STAR’s commercial and
                industrial program efforts.

                 Residential Sector

                The residential sector is designed to help make residential homes more energy
                efficient. This sector is composed of two primary components: home
                improvements and new homes. ENERGY STAR reported that households can
                reduce their energy use up to 30 percent and save $600 annually on utility bills by
                using qualified products and services. In the 2006 annual report, EPA reported
                that ENERGY STAR’s residential sector avoided total emissions of 0.4 MMTCE.

Noteworthy Achievements
                According to ENERGY STAR, the program has grown steadily in terms of the
                energy efficient solutions it offers, the variety of partners, and the benefits it
                delivers. EPA has been successful in marketing the ENERGY STAR brand and
                label. In 2007, EPA reported that 74 percent of households nationwide recognize
                the ENERGY STAR label and 62 percent associated the label with “energy
                efficiency or energy savings.”

                Since 2000, the ENERGY STAR program has consistently outperformed its
                annual goals, as illustrated in Figure 1-2.




4
 A logic model illustrating how the ENERGY STAR program is designed to promote energy efficiency among
commercial buildings is depicted in Appendix B.


                                                    3

                                                                                                09-P-0061



         Figure 1-2: ENERGY STAR Goals Are Surpassed
                           40
                           35



           MMTCE Avoided
                           30
                           25
                           20
                           15
                           10
                           5
                           0
                                2000   2001   2002        2003      2004     2005     2006
                                                             Year
                                              Goal               Reported
         Source: ENERGY STAR and Other Climate Protection Partnership Annual Reports,
         2000 through 2006

         The ENERGY STAR program’s overall reported achievements in 2006 exceeded
         the program’s goals as illustrated in Table 1-1.

         Table 1-1: ENERGY STAR 2006 Goals and Achievements by Program
                                                    2006 Goal               2006 Achievements
           ENERGY STAR Program                   (MMTCE Avoided)             (MMTCE Avoided)
          Product Labeling                                14.5                      15.5
          Residential                                      0.5                       0.4
          Commercial Buildings                            11.5                      15.2
          Industrial                                       3.7                       6.5
          Total                                           30.2                      37.6
         Source: Based on data presented in the ENERGY STAR and Other Climate Protection
         Partnerships 2006 Annual Report


Scope and Methodology
         We conducted this performance evaluation in accordance with generally accepted
         government auditing standards. Those standards require that we plan and perform
         the evaluation to obtain sufficient, appropriate evidence to provide a reasonable
         basis for our findings and conclusions based on our objectives. We believe that
         the evidence obtained provides a reasonable basis for our findings and
         conclusions based upon our objectives. We performed our field work from
         January through September 2008.

         Our review included an examination of applicable laws and regulations as well as
         Agency guidance. We reviewed those internal controls that were relevant to our
         objectives. We reviewed ENERGY STAR annual reports, and Agency guidance


                                                     4

                                                                                                  09-P-0061



                documents. We reviewed planning documents, including logic models. We met
                with Agency staff and contractors. We reviewed the methodologies governing the
                savings benefit calculations for the commercial and products program sectors.5
                Additionally, for the products sector, we reviewed documentation in support of
                the 2006 reported savings benefits.

                Appendix C provides further details on our scope and methodology.

Prior Review
                An EPA Office of Inspector General (OIG) report, ENERGY STAR Program Can
                Strengthen Controls Protecting the Integrity of the Label,6 reported that
                improvements should be made to better assure the integrity of the ENERGY
                STAR label for home and office products. Criteria for revising specifications
                were unclear, and EPA did not have reasonable assurance that the self-
                certification process was effective. EPA relied on some alternative verification
                mechanisms, but lacked any quality assurance or review of these reported results.
                EPA did not agree with all of the conclusions, but agreed to implement the OIG
                recommendations to strengthen management controls to protect the integrity of
                the ENERGY STAR label.




5
  The residential and industrial program sectors were excluded from our review. The commercial and products

sector combined encompassed 81.6 percent of the 2006 reported carbon emissions avoided. 

6
  EPA OIG Report No. 2007-P-00028, issued August 1, 2007, at www.epa.gov/oig/reports/2007/20070801-2007-P-
00028.pdf. 



                                                     5

                                                                                                         09-P-0061





                                            Chapter 2
    Inaccurate and Unsupported Data Used to Calculate
       2006 ENERGY STAR Product Annual Benefits

                  The ENERGY STAR program reported savings for 2006 that were inaccurate or
                  unsupported. A key component of the program’s annual and lifetime savings
                  calculation process for consumer products is the total ENERGY STAR shipments
                  for that year. We identified several concerns with shipment data, including: lack
                  of quality review of the data submittals; reliance on estimates, forecasting, and
                  third party reporting; and the potential inclusion of international shipments with
                  domestic ENERGY STAR product shipments. When annual shipment data are not
                  supportable or reliable, the validity of the savings calculation process is in
                  question.

Process Used to Calculate Product Sector Savings
                  The product sector’s annual savings are computed using the Climate Change
                  Action Plan (CCAP) model. This model is used to compute the energy savings for
                  each qualified EPA ENERGY STAR product. A key number in the computation
                  is the annual ENERGY STAR-qualified shipment total by product category.7

                  For the majority of the EPA product categories (29 of 37), the manufacturers
                  annually submit shipment data in one of two ways. They either submit data
                  directly via unit shipment data submittal forms or indirectly through third party
                  associations. One EPA contractor has sole responsibility for the receipt of these
                  data and the production of the annual summary report. This report includes the
                  overall numbers of qualified ENERGY STAR units shipped by product category,
                  which are used in the annual savings calculation process. Figure 2-1 depicts the
                  process. Figure 2-2 illustrates how the annual shipments per qualified ENERGY
                  STAR product category are multiplied by the unit energy savings8 to derive the
                  annual energy savings attributable to the program.




7
  The ENERGY STAR program uses the term shipments interchangeably with sales. When a qualified ENERGY
STAR manufacturer ships its ENERGY STAR-qualified product, the shipment is considered sold for annual savings
calculation purposes. For the reporting period reviewed, EPA did not require manufacturers to submit annual
shipment data for office products or for programmable thermostats. Office products consist of: computers, copiers,
fax machines, mailing machines, multifunction devices, printers, and scanners.
8
  Unit energy savings for each product type is the difference between the business-as-usual unit energy consumption
and the ENERGY STAR unit energy consumption in a given year. Unit energy savings change over time for most
product types due to specification revisions, usage pattern changes, and changes to the business-as-usual efficiency.


                                                          6

                                                                                               09-P-0061



Figure 2-1: ENERGY STAR Products Annual Savings Calculation Process

  Partners Report
  Shipment Data to EPA*



                                                Energy savings from             Final 2006 Results
                                                existing program                75.2 billion kWh
                                                stock + (2006                   58.5 trillion British
                                                Product Shipments               thermal units natural
                                                due to program x Unit           gas and other fuels
   Contractor updates     EPA reviews model     Energy Consumption
   CCAP model*                                  – 2006 Adjustments)
                                                (CCAP model results
                                                                                1. Data incorporated
                                                as supplied by
                                                                                into Annual Report
                                                contractor are
                                                                                2. Summary Memos
                                                modified by
                                                                                written
                                                adjustment factors)
  EPA and two
  contractors review
  and update key
  parameters such                                                             Legend
  as product lifetime,                                                        Pink - Contractor/Partner
  Business-as-usual                                                           Actions
  projections                                     EPA prepares
                                                                              Blue – EPA Actions
                                                  adjustments to reflect
                                                                              Orange – Methodology
                                                  understanding of
                                                                              Formula
                                                  third party promotion
                                                                              Yellow – Final 2006 Results
                                                                              Green – Post-Analysis
                                                                              Actions


*Manufacturer submits data directly to EPA contractor or via third party associations
Source: EPA ENERGY STAR Immediate Office



Figure 2-2: ENERGY STAR Products Annual Savings Calculation

       Current Year
      ENERGY STAR
    Qualified Shipments


                                 Current Year                                                Total
                                                             Savings from
               X                   Annual                                                   Annual
                           =       Energy
                                   Savings
                                                   +       Products Sold in
                                                            Previous Years
                                                                                 =          Energy
                                                                                            Savings
        Current Year
    Unit Energy Savings



Source: OIG based on ENERGY STAR program materials



The total annual saving calculation also includes a portion of savings computed
for products shipped in previous years but are assumed to still be in use. EPA
continues to claim savings for shipped qualified products over the estimated
lifetime of the product. The lengths for which the lifetime annual savings benefits
are calculated vary from 4 to 20 years after initial product shipment.
Additionally, the total annual savings calculation includes an estimate of benefits
from sales of products that previously met ENERGY STAR specifications but no
longer qualify (further details are in Chapter 3).



                                         7

                                                                                                    09-P-0061



Shipment Totals Used in Savings Calculations Are Unreliable

                2006 Annual Shipment Data are Irreconcilable

                We found that the annual shipment data used for the 2006 savings calculations
                were unsupportable. Based on our review of the documents provided, we were
                unable to reconcile the original shipment data with final reported totals for 18 of
                the 29 product categories. These reported totals are used to calculate ENERGY
                STAR program savings. Shipment totals for 13 product categories were
                understated and 5 were overstated. The results of our analysis are in Table 2-1.

         Table 2-1: OIG Reconciliation of Reported Product Shipment Totals for
         18 of 29 ENERGY STAR Categories
                                                             2006 Unit Shipment
                                  2006 Unit Shipments        Totals Reported by
             ENERGY STAR            Used in Benefits         Manufacturers and
            Qualified Product         Calculation9             Associations10       Difference       Impact
          Audio/DVD                          3,572,316                  3,881,346        -309,030   Understated
          Boilers                              382,770                    405,573         -22,803   Understated
          Commercial Hot                        17,059                     17,403            -344   Understated
          Food Holding
          Cabinets
          Commercial                             83,493                  106,658         -23,165    Understated
          Refrigerators &
          Freezers
          Dehumidifiers                       1,203,216                  776,431       +426,785      Overstated
          End Use Products                   18,446,331               19,623,346      -1,177,015    Understated
          with Qualified
          External Power
          Supplies
          Exit Signs                          1,425,554                3,450,117      -2,024,563    Understated
          External Power                    128,849,173              128,939,237         -90,064    Understated
          Supplies
          Furnaces                            1,172,843                1,170,124          +2,719     Overstated
          Monitors                           13,859,666               34,581,203     -20,721,537    Understated
          Residential Light                  11,361,701               11,363,633          -1,932    Understated
          Fixtures
          Roofing -                          21,352,516               15,966,045      +5,386,471     Overstated
          Commercial Gallons
          Roofing -                       1,916,655,032            2,227,937,102    -311,282,070    Understated
          Commercial &
          Residential Sq. Ft.
          Room Air Cleaners                     287,354                  289,815          -2,461    Understated
          Telephony                           6,761,627                7,006,979        -245,352    Understated
          Transformers                          173,390                  166,669          +6,721     Overstated
          (Commercial &
          Industrial)
          TV/VCR                             17,685,967               13,166,140      +4,519,827     Overstated
          Ventilating Fans                      853,406                  857,232          -3,826    Understated
          Source: OIG analysis of shipment data submittals



9
  Per ENERGY STAR Unit Shipment Data Report Calendar Year 2006, July 1, 2007. These figures are reported by

the contractor and used in the annual savings calculation process. 

10
   Total compiled by OIG based on supporting documents (manufacturer data shipment submittal forms and

third party association summary spreadsheets) provided by contractor. 



                                                       8
                                                                                                          09-P-0061



                  According to EPA’s contractor, the differences may have been caused by a
                  number of reasons, including:

                      •	 Subsequent to shipment data submittals, manufacturers may have called to
                         update or correct previously provided written submissions.
                      •	 The contractor may have called the manufacturer to follow up concerning
                         the data submittal and new information received.
                      •	 Some private labelers11 and original manufacturers submit the shipment
                         data for the same products, which causes double reporting of shipments.
                      •	 Some manufacturers who reported shipments were not qualified
                         manufacturers for that product category.
                      •	 Manufacturers made errors in reporting.

                  However, the contractor could not provide evidence in support of these possible
                  explanations.

                  If the shipment data used in the annual savings calculation are incorrect or
                  unsupportable, the Agency may be overstating or understating the savings
                  benefits for the program. For example, in our reconciliation of the 2006 shipment
                  data, the monitor category was understated by nearly 21 million unit shipments or
                  150 percent. Monitors are one of the six ENERGY STAR products that account
                  for 70 percent of the ENERGY STAR product sector carbon reductions to date.
                  TV/VCR, another one of the six large contributors to carbon reductions, was
                  overstated by approximately 4.5 million unit shipments or 26 percent.

                  ENERGY STAR overall program benefit are the sum of the savings calculated for
                  each individual product. The importance of accurate data is discussed within a
                  recently published article12 that summarizes the methodology used to compute the
                  annual ENERGY STAR product program sector benefits. The article stated:

                           We implement the bottom-up model with awareness that uncertainty
                           for each product type contributes to uncertainty in total ENERGY
                           STAR impacts. This means that many small inaccuracies are
                           additive overall and any one inaccuracy for a product type with
                           large energy savings can significantly affect the overall results.

                  We could not reconcile shipment data in 2006 for 62 percent of the product
                  categories reviewed. The significance of this deficiency extends beyond a single
                  year’s benefits calculation. The deficiency impacts the savings calculations for
                  future years as well because savings are computed and claimed annually over the

11
   Private labeling is defined as licensing a product to another company to sell under its own name, rather than under
the name of the manufacturer.
12
   Marla C. Sanchez, Richard E. Brown, Carrie Webber, and Gregory K. Homan. 2008. Savings estimates for the
United States Environmental Protection Agency's ENERGY STAR voluntary product labeling program. Energy
Policy. vol. 36, no. 6, pp. 2098-2108.



                                                          9

                                                                                                         09-P-0061



                  lifetime of a product. As previously discussed, the lifetime of calculated annual
                  benefits can reach up to 20 years after initial product shipment.

                  Lack of Quality Review of Shipment Data

                  The reported shipment data submitted annually by manufacturers were not being
                  adequately reviewed. According to ENERGY STAR’s guidance document,13 the
                  ENERGY STAR Product Labeling branch collects national shipment data from
                  ENERGY STAR partner manufacturers and reconciles inconsistencies through
                  the contractor. As described by the contractor, the contractor performs a limited
                  review that involves reviewing the information to see if the data appears
                  reasonable. EPA officials have not requested the supporting documentation;14
                  therefore we found no evidence that EPA conducts any quality reviews of
                  shipment data submittals. If a reconciliation of shipment data had occurred, the
                  discrepancies we identified in our analysis could have been noted and addressed
                  in a timely manner.

                  Number of Manufacturers Submitting Data May be Wrong

                  We were unable to reconcile the number of manufacturers who submitted their
                  annual data to the number reported. In some cases, we found fewer
                  manufacturers submitting data than the contractor reported. In other cases, more
                  manufacturers reported than were qualified. Additionally, we noted some
                  manufacturers reporting annual ENERGY STAR product shipments that were not
                  listed as a manufacturer of ENERGY STAR-qualified products. For these, there
                  was no evidence of any follow-up to address why this occurred.

Other Factors Contribute to Uncertainties

                  Third Party Association Reporting Inconsistent and Unsupported

                  Reporting from third party associations was inconsistent and primarily included
                  only summary totals by manufacturer. For most of the associations reporting
                  shipment data, there was no way to verify the numbers based on any support or
                  actual shipment data documentation, but we identified some problems. For
                  example, there were cases where the manufacturer reported directly to both the
                  contractor and the association, which resulted in shipment number differences.
                  There was no evidence that the contractor questioned the differences or conducted
                  any follow-up. The contractor acknowledged that the third party association
                  reporting is inconsistent, lacks uniformity, and data has been submitted past
                  agreed due dates. According to the contractor, in instances when there is a

13
   OAR (Office of Air and Radiation) Climate Protection Partnerships Division’s ENERGY STAR Performance
Management Plan.
14
   The contractor had not been maintaining the supporting documentation for previous shipment totals, and the
contractor is not required to do so by the contract. However, the contractor recently began retaining supporting
documentation for reported overall numbers.


                                                         10 

                                                                                                       09-P-0061



                 reporting difference, it has been its general practice to use the shipment totals
                 reported by the third party association rather than the manufacturer. We could not
                 verify from documentation provided whether these numbers were double counted.

                 Use of Estimates and Forecasting Increases Uncertainty

                 Selected manufacturer shipment data submittal forms provided shipment
                 estimates rather than actual shipment totals. We found no documentation of any
                 follow-up with these manufacturers as to why estimates were used, nor did the
                 contractor mention this as a step taken.

                 EPA did not require manufacturers to submit annual shipment data for office
                 products. For the 2006 annual reported savings, forecasting reports were used to
                 estimate shipment totals for some office products. We reviewed the two primary
                 forecasting reports used. We noted that one report used for this forecasting was
                 dated 2001. The other report did not clearly indicate how domestic shipments
                 were separated from international shipments. Concerns associated with using a
                 dated forecasting report may be corrected due to recent office product
                 specification revisions.15 Also, beginning in 2008, manufacturers were required
                 to submit shipment data annually for office products.

                 Annual programmable thermostat shipments were estimated by the contractor
                 based on past conversations with one U.S.-based manufacturer. Currently there
                 are over 50 qualified manufacturers in this category, including many companies
                 outside of the United States. Further, the ENERGY STAR Partner Commitment
                 Agreement for Programmable Thermostats16 specifically requires that
                 manufacturers submit the total number of qualified products shipped annually.
                 We could not verify or reconcile the accuracy of support for benefits from this
                 item since no actual shipment data were submitted, despite EPA’s requirements.

                 ENERGY STAR Totals May Include International Shipments

                 According to ENERGY STAR staff, shipment totals used to calculate energy
                 savings are supposed to be limited to U.S. shipments. However, ENERGY
                 STAR’s management plan states that as part of the partnership agreement,
                 manufacturers must supply EPA with the “total number of ENERGY STAR
                 qualified products shipped in the United States / Canada on annual basis.” We
                 noted discrepancies in manufacturer shipment submittal forms. For example, on
                 one submittal the manufacturer was identified as Company X, Canada, but had
                 been changed to Company X, USA, within the final contractor’s reports. Also, on
                 selected forms, the manufacturer said it could provide total international
                 shipments with only an estimate of U.S. shipments. EPA’s contractor said that it

15
   In 2007, new specifications were made to the following office products: computers, copiers, facsimile, mailing 

machines, multifunction devices, printers, and scanners. 

16
   To participate in the ENERGY STAR program and become eligible to become a partner, each manufacturer must 

agree to and adhere to this commitment.



                                                        11 

                                                                                   09-P-0061



         was unaware of domestic and international shipments being commingled, but
         noted it has not done any detailed work in this area. We believe that being
         unaware of whether international shipments are being included in calculations is
         not a reason to conclude they are not.

         Late Shipment Data Not Included in Benefits Calculations

         We found that approximately 33 million units reported as shipped were not
         included in the shipment totals used to calculate saving benefits for 2006. Per the
         Performance Management Plan, manufacturers are to provide shipment data by
         March 1 of the subsequent year (i.e., March 2007 for 2006 shipments). EPA’s
         contractor then compiles this information and prepares a July report of ENERGY
         STAR shipments to be used in the savings benefit calculations. The contractor
         prepares an updated report in October that includes shipment data submitted after
         the deadline. However, due to late submittals, we noted 33 million units captured
         in the October 2007 report that had not been captured in the July 2007 report.
         Therefore, savings benefits from these products were not captured in the 2006
         reporting period.

         According to the EPA Office of Air and Radiation’s Director of the Climate
         Protection Partnership Division, these shipments were also not included in the
         2007 calculations because the amount was considered immaterial. According to
         EPA’s contractor, the late shipment numbers were folded into the 2007
         calculations. However, the contractor was unable to provide evidence that this
         had occurred. Therefore, we concluded that the late shipments are not being
         captured by the current methodology. The lack of a methodology to capture
         potential savings benefits for late submittals reduces the reliability of ENERGY
         STAR reporting.

DOE Product Included in EPA ENERGY STAR Reported Savings
         EPA reports a portion of savings benefits from the shipments of compact
         fluorescent lights (CFLs) even though CFLs are managed by DOE. EPA’s 2006
         ENERGY STAR Annual Report claimed 75.2 billion kilowatt hours (kWh) in
         energy savings. However, 5.7 billion kWh of those savings, or 8 percent, came
         from the DOE-managed CFLs. EPA did not disclose in its Annual Report that
         savings benefits reported include benefits from DOE-managed products.

         Also, we found differences in the total benefits claimed for CFLs by EPA and
         DOE. DOE reported 6.2 billion kWh in energy savings versus EPA’s 7.6 billion
         kWh for 2006. Rather than obtain total savings benefits directly from DOE, EPA
         calculated the CFLs energy savings benefits in the same manner as other EPA
         product savings (this process is described earlier in this chapter). This difference
         in energy savings between DOE and EPA for the same product questions the
         reliability of the computing and reporting of energy savings.




                                          12 

                                                                                 09-P-0061



         EPA ENERGY STAR staff said they claim one-third of CFL energy savings
         because of EPA’s marketing efforts. They also said they were involved in the
         specification development for CFLs. For these reasons, they claim a portion of
         the CFLs savings benefits. However, DOE ENERGY STAR staff were not aware
         that EPA claimed this percentage of CFL savings, and had claimed 100 percent of
         their calculated CFL savings in 2006. This resulted in double-counting of CFL
         benefits by EPA and DOE. A DOE ENERGY STAR representative said that
         while EPA does contribute to the success of CFLs by EPA’s marketing efforts,
         EPA should coordinate with DOE regarding the calculation and reporting.

Conclusion
         We found that the reported savings claims were inaccurate and the reported
         annual savings unreliable. We identified several concerns with shipment data,
         including: lack of quality review of the data submittals; reliance on estimates,
         forecasting, and third party reporting; and potential inclusion of international
         shipments with domestic ENERGY STAR product shipments. After attempting
         to reconcile the support for these numbers by product category, we found the
         overall claims to be inaccurate due to irreconcilable manufacturer shipment data
         and use of estimates. We conclude that the savings reported are not accurate or
         verifiable. The accuracy of the program’s reported energy savings is important in
         the United States’ efforts to reduce greenhouse gas emissions.

Recommendation

         2-1 	   To improve the validity of reported annual savings for the ENERGY
                 STAR program, we recommend that the Principal Deputy Assistant
                 Administrator for the Office of Air and Radiation establish and perform
                 quality controls to ensure that:

                    •	 Data in benefits calculations, whether from partners or third
                       parties, are timely, complete, valid, and documented.
                    •	 The contractor and third party associations receiving the
                       manufacturer data submittal forms reconcile submittals in a
                       manner that ensures the total annual shipments reported by product
                       category are accurate and reflect actual numbers (not estimates)
                       and are for domestic shipments only.
                    •	 Agency officials improve contractor oversight by obtaining actual
                       support for annual savings in a manner that demonstrates that the
                       numbers are valid and can be reconciled.
                    •	 Data in benefits calculations attributable to DOE products should
                       be clearly identified and developed in consultation with DOE to
                       avoid redundancy.




                                         13 

                                                                                 09-P-0061



Agency Comments and OIG Evaluation
         EPA did not agree to the portions of Recommendation 2-1 that related to
         improvements needed to ensure data used in benefits calculations are timely,
         complete, valid, and documented. The Agency requested the OIG to delete the
         related portions of the recommendation. EPA said it addresses the quality of
         annual shipment numbers used for ENERGY STAR benefits calculations through
         a systematic review and improvement of the data submitted based on additional
         follow-up with reporting manufacturers. However, based on our findings in this
         area, we do not agree that the Agency currently has a systematic review process in
         place. The OIG evaluated the existing process and the findings show that the
         process used to collect and verify the data was deficient and needs improvement.
         OIG identified deficiencies with the process of collecting, reviewing, and
         reporting product data shipment information both from third parties or actual
         manufacturers. EPA also stated that estimates were not used as part of estimating
         annual program benefits. However, at the time of our review, estimates of
         shipment totals were used for both office products and programmable thermostats
         in calculating annual benefits.

         EPA provided corrective actions to address the portions of the recommendation
         that relate to improving contractor oversight and reporting savings from DOE
         products. Specifically, EPA agreed to remove the benefits of CFL products from
         the program’s 2007 benefits estimates and will only reintroduce these benefits
         after appropriate coordination with DOE. The OIG concurs with the Agency’s
         plan to address the reporting of CFLs. However, the Agency’s corrective actions
         for contractor oversight do not fully meet the intent of the recommendation. The
         OIG identified deficiencies with the process of collecting, reviewing, and
         reporting product data shipment information. The Agency’s corrective action
         plan will need to address these shortcomings.

         The recommendation remains open and unresolved. The Agency’s comments and
         our evaluation of those comments are in Appendix D.




                                         14 

                                                                                                      09-P-0061





                                           Chapter 3
       ENERGY STAR Market Transformation Benefits
               Calculated Inconsistently

                 The reporting of ENERGY STAR market transformation benefits is not
                 transparent. ENERGY STAR does not disclose that it includes savings from
                 products that are not ENERGY STAR qualified. Further, the process does not
                 compute the effect for products with stable or rising sales after a specification
                 revision. EPA’s market transformation benefits are generated when innovations
                 are introduced into the marketplace and are accepted by a large portion of the
                 market. However, EPA calculates the market transformation effect only when
                 ENERGY STAR product shipments fall after a specification revision.

Market Transformation Caused by Innovations in Efficiency
                 The ENERGY STAR programs attempt to transform the markets (i.e,. consumer
                 electronics, office equipment, lighting, etc.) from less to more energy-efficient
                 products. Market transformation is the process whereby these efficiencies are
                 introduced into the marketplace and are increasingly accepted by a large portion
                 of the market. According to EPA, the ENERGY STAR program produces such
                 an effect on the market. ENERGY STAR staff asserted that the program has two
                 primary mechanisms to spur market transformation for labeled products:

                     •	 Introduce standards for new product categories.
                     •	 Revise specifications for existing products to further increase their energy
                        efficiency.

                 According to EPA, the program has revised specifications for over 50 ENERGY
                 STAR product categories. After a specification is revised, shipments of
                 ENERGY STAR units may decrease until manufacturers institute product design
                 changes to meet the new requirements. Nonetheless, products that once met
                 program standards but are then no longer ENERGY STAR-qualified continue to
                 be sold.17 Shipments of these products are included in reported ENERGY STAR
                 benefits; this assumes that the products continue to be manufactured as energy
                 efficient despite not meeting the new ENERGY STAR revised standard.




17
  The methodology does not address the loss of potential energy savings that occurs because the consumer
purchased a formerly qualified product over a newly qualified higher performing alternative.


                                                       15 

                                                                                                   09-P-0061



Market Transformation Benefits Calculated with Assumed Data
                EPA’s ENERGY STAR market transformation benefits process calculates and
                reports savings based on a combination of assumed and actual shipment numbers.
                The ENERGY STAR program does not have data to support the assumptions the
                market transformation effect uses. Further, the assumed sales that are attributed
                to the market transformation effect represent non-qualified products.

                A peer reviewed article18 describing ENERGY STAR’s market transformation
                effect included the following limitations statement:

                         “General limitations to a bottom-up approach occur in two main
                         areas: (1) the model requires numerous detailed inputs to generate
                         the end result and (2) uncertainty in those inputs are additive
                         through the process. These limitations mean that collecting and
                         documenting high-quality inputs is essential…targeting data
                         collection and verification activities at those areas is key to
                         successful results.”

                In this market transformation effect the main input – previously qualified
                ENERGY STAR products – is based on assumptions rather than collected or
                verified data. Program requirements do not require manufacturers to report sales
                of formerly qualified ENERGY STAR products. EPA uses a model based on
                assumptions to calculate the market transformation effect in the absence of actual
                shipment data. By design, the model ensures that shipment amounts of products
                are never lower than the amount in the year prior to the specification change.

                The specification revision for DVD players illustrates EPA’s method of
                accounting for the market transformation effect. New specifications for DVD
                players took effect January 1, 2003. Shipments of ENERGY STAR-qualified
                DVD players rose that year, so no adjustment for the market transformation effect
                was made. However, in 2004 and beyond, manufacturer-reported shipments of
                ENERGY STAR-qualified DVD players fell below the 2003 level. To make up
                for this drop in sales, which was attributed to the specification revision, the model
                adjusted the current-year shipment figure based on the market transformation
                effect. The model increased the shipment totals for 2004 by adding in an
                estimated number of non-qualified ENERGY STAR DVD players shipped. This
                assumption is based on the theory that even though this estimated number
                represents non-qualified ENERGY STAR products, these products are more
                energy efficient than they would have been without Energy Star. Therefore,
                ENERGY STAR’s impact was to transform the market to produce more efficient
                products. The model continued to rely on this estimated level of product


18
  Marla C. Sanchez., Richard E. Brown, Carrie Webber, and Gregory K. Homan. 2008. Savings estimates for the
United States Environmental Protection Agency's ENERGY STAR voluntary product labeling program. Energy
Policy. vol. 36, no. 6.


                                                     16 

                                                                                                           09-P-0061



                  shipments for 2005 and 2006 despite further decline in the number of units
                  shipped. This is shown in Figure 3-1.
                  Figure 3-1: DVD Players Market Transformation Effect
                              10000
                               9000
                               8000
                               7000
                  DVD units


                               6000
                               5000
                               4000
                               3000
                               2000
                               1000
                                  0
                                  2001        2002       2003        2004          2005          2006

                                              Market transformation assumed shipments
                                              Actual Energy Star shipments


                  Source: OIG analysis of CCAP


 Market Transformation Obscures Program Accomplishments
                  Based on our review of ENERGY STAR products that had specification
                  revisions, the market transformation effect was calculated for nine product
                  categories in 2006:

                              • DVD players       • Home audio equipment           • VCR & VCR/DVDs
                              • Monitors          • TVs                            • Air source heat pumps
                              • Telephony         • TVs/VCRs                       • Central air conditioners

                  The savings derived from the market transformation effect may have a significant
                  impact on ENERGY STAR reported savings, because energy savings will
                  continue to accumulate for the lifetime of a product. To illustrate the impact of
                  the market transformation effect, we recomputed ENERGY STAR benefits by
                  eliminating assumed shipment data and comparing these to the original benefit
                  calculation. Based on our recalculation, ENERGY STAR energy savings reported
                  in 2006 were overstated, as shown in Table 3.1.19




19
  This calculation represents one year; it does not include the potential overstatement from prior or future year
benefits calculated for the same products.


                                                            17 

                                                                                                09-P-0061


                   Table 3-1: Market Transformation Effect
                                                 ENERGY STAR           OIG
                                                  Summary20       Re-calculation         Overstatement
                    Energy Saved                       70.5             66.3                  4.2
                    (Billion kWh)
                    Carbon Avoided                     14.3             13.5                  0.8
                    (MMTCE)
                   Source: 	OIG analysis of EPA data

                  Shipment amounts were not based on actual or reported shipment data. EPA
                  counted benefits from non-qualified ENERGY STAR products into its annual
                  ENERGY STAR benefits amounts for 2006. Also, EPA did not compute a
                  market transformation effect for products with stable or rising sales after a
                  specification revision. The model is therefore inconsistently applied, since there
                  should be a benefit derived from products with increasing as well as decreasing
                  shipments.

Conclusion
                  ENERGY STAR does not disclose that it includes savings from products that are
                  not ENERGY STAR-qualified. The computation of the market transformation
                  effect does not use shipment or sales data, and only applies to products with both
                  specification revisions and decreasing sales. Further, reported ENERGY STAR
                  energy savings for 2006 omit mention of the market transformation effect, though
                  it is included in individual product energy savings calculations. ENERGY STAR
                  needs to improve controls over estimating and reporting benefits from the market
                  transformation effect. Partnership agreements should include requirements for
                  reporting shipment data of formerly qualified products, and the “effect” should be
                  applied consistently. Also, market transformation benefits should be separately
                  disclosed in ENERGY STAR’s annual reporting.

Recommendation
                  3-1 	   We recommend that the Principal Deputy Assistant Administrator for the
                          Office of Air and Radiation develop and consistently apply a data-driven
                          methodology to compute the market transformation effect of all product
                          categories and report the benefits separately from ENERGY STAR-
                          qualified products.

Agency Comments and OIG Evaluation
                  EPA said that the OIG did not provide a basis for recommending a change in the
                  market transformation methodology and suggested removing the
                  recommendation. The methodology is based on assumed shipment amounts and

20
     The 70.5 billion kWh of energy saved comes from EPA-managed ENERGY STAR products.


                                                       18 

                                                                     09-P-0061



reports savings from non-qualified products as ENERGY STAR qualified product
savings without proper disclosure. Therefore, the OIG does not agree with EPA’s
suggestion to remove the recommendation. The recommendation is open and
unresolved. The Agency’s comments and our evaluation of those comments are
in Appendix D.




                               19 

                                                                                                     09-P-0061





                                           Chapter 4
     ENERGY STAR Commercial Benefits Model Utilizes
               Unverified Assumptions

                 The methodology used to compute the ENERGY STAR commercial sector
                 savings was based on unverified assumptions. EPA calculates program savings as
                 the difference between all commercial sector gains in energy efficiency and
                 claims by utility and State programs for that year. However, we do not believe
                 the formula is sufficiently tailored to the specific needs of the ENERGY STAR
                 program. The formula needs to be verified to ensure that the end results –
                 benefits attributable to ENERGY STAR’s commercial activities – are valid and
                 accurately represent ENERGY STAR’s contributions to energy savings.

Formula Used to Calculate Commercial Sector Savings

                 EPA’s ENERGY STAR program uses a formula created, operated, and
                 maintained by its contractor to compute the annual commercial sector savings. In
                 this formula, the contractor (a) calculates all commercial sector gains in energy
                 efficiency, (b) subtracts amounts from utility and State programs, and
                 (c) concludes that the remaining energy savings are attributed to the ENERGY
                 STAR program. ENERGY STAR staff said they review the formula with the
                 contractor but they do not document the review results. The formula uses data
                 from other agencies, along with related energy studies; it does not use any data
                 from the ENERGY STAR program.

Methodology Not Tailored for ENERGY STAR
                 The methodology used for ENERGY STAR is not tailored specifically to
                 calculate impacts attributable to that program and contains unverified
                 assumptions. The methodology, which calculates the commercial benefits
                 amount, is described in a 2007 paper by EPA’s contractor.21 This paper states:
                 “In this study, energy efficiency programs refer collectively to all such
                 governmental efforts, irrespective of organizational origin or mode.” This
                 methodology looks at all energy efficiency programs in total; it is not tailored to
                 pull out the impacts of the ENERGY STAR program. There is only one mention
                 of ENERGY STAR in the paper, because it is used to define the start of the
                 treatment period.



21
  Horowitz, Marvin J. (2007). “Changes in Electricity Demand in the United States from the 1970s to 2003.” The
Energy Journal, Vol. 28, No. 3, pp. 93-119.


                                                       20 

                                                                       09-P-0061



The paper’s goal was to answer the following three questions:

   •	 How has electricity demand changed in the United States over the past
      three decades?
   •	 If electricity demand changed, do these changes differ between States
      depending on their degree of commitment to encouraging energy
      efficiency?
   •	 Does program commitment have observable, long-term impacts on the
      behaviors that affect electricity demand?

These questions are not related directly to ENERGY STAR’s impact on
electricity demand. Rather, they seek to determine energy efficiency programs’
effects on energy demand.

The methodology was peer reviewed, but its application as the basis for
measuring ENERGY STAR’s impact on the commercial sector was not part of the
published methodology. EPA needs to verify that the benefits attributed to
ENERGY STAR are supported. Specifically, EPA should verify that the
methodology: (a) avoids double counting savings from the product sector,
(b) accounts for impacts of other federal energy efficiency programs, and
(c) accounts for impacts of non-federal energy efficiency programs.

Method to Avoid Double Counting Products Savings Unclear

The formula used to compute ENERGY STAR commercial sector energy savings
does not use any data, results, or statistics from the EPA’s ENERGY STAR
program. Rather, the formula uses databases maintained by other government
agencies, such as the Federal Reserve Board, National Climate Data Center, and
Energy Information Administration. EPA ENERGY STAR staff said that the
formula uses the best information available. To account for benefits from the
ENERGY STAR products sector, the formula uses a Federal Reserve Bank’s
market group index for information processing and related equipment.

Approximately half of all ENERGY STAR product savings in 2006 were for
commercial products, totaling 37.1 billion kWh. When the Agency reports total
annual savings it includes savings from products, residential, industrial and
commercial. If the commercial savings do not account for the savings from
commercial products reported by the Agency, there may be the potential for
overstatement of savings. The contractor and EPA officials asserted there was no
double counting, but they could provide no evidence to support that position.

Method for Accounting for Impacts of DOE Program Unclear

The ENERGY STAR program’s methods for accounting for the impacts of a
DOE program are unclear. The Energy Policy Act of 1992 set standards for
certain commercial equipment and set schedules requiring DOE to make, review,


                                21 

                                                                                                              09-P-0061



                  and update standards. The DOE’s Building Technologies Program works to
                  improve the efficiency of buildings and the equipment, components, and systems
                  within them. These DOE programs should contribute to some of the energy
                  savings within the commercial sector. However, EPA’s formula does not
                  evaluate or compensate for the energy efficiency contributions from DOE
                  programs. Rather, the formula only deducts savings from utility, State, and local
                  programs. ENERGY STAR staff said that the formula accounts for the DOE
                  programs through the use of the Federal Reserve Board’s market index group.
                  The accuracy of using this index compared to actual reported data from both EPA
                  and DOE should be validated to determine if the formula is reporting ENERGY
                  STAR commercial benefits accurately.

                  Method for Accounting for Impacts of Non-federal Energy Efficiency
                  Programs Unclear

                  The method for accounting for the impacts of non-federal energy efficiency
                  programs is unclear. The formula subtracts energy savings that are attributable to
                  utility companies, States, and local programs – such as demand-side management
                  (DSM) and public benefits charges (PBC) from total commercial savings – to
                  arrive at net ENERGY STAR savings for the commercial sector. The contractor
                  calculates savings from these other programs22 by using information on DSM and
                  PBC programs from the study A Nationwide Assessment of Utility Sector
                  Efficiency Spending, Savings, and Integration with Utility System Resource
                  Acquisition. The contractor performs the following alterations to the numbers
                  taken from this study:

                            1. Project or estimate DSM and PBC savings from 2004 to 2006. (The
                            study’s results were from 2004; the contractor updated this data to 2006 by
                            using a growth rate that it determines.)

                            2. Allocate the share of energy savings that occur in the commercial
                            sector. (The study’s reported amounts were a combination of residential,
                            commercial, and industrial savings.)

                            3. Apply a net-realization rate that lowers the computed DSM and PBC
                            savings because, as explained by the contractor, the full amount of energy
                            saved reported by electric utilities for their DSM programs cannot be
                            taken at face value.

                  Based on the first two steps, the computed savings from the DSM and PBC
                  programs were 38,502 gigawatt hours, but EPA’s contractor took 42.5 percent23
                  of this amount, lowering the savings figure to 16,363 gigawatt hours. This was

22
   Other programs consist of State, utility and local energy efficiency programs. 

23
   This percentage is supported by a memorandum prepared by the contractor that spells out how the program

allocation factor for the formula was calculated. Specifically, the 42.5 percent is referred to as a net-to-gross factor, 

or a net realization rate. 



                                                           22 

                                                                                   09-P-0061



         then attributed to the other energy efficiency programs. The application of the
         net-realization rate significantly impacts the ENERGY STAR-derived energy
         benefit. The lower the rate the greater the portion of savings is attributable to
         ENERGY STAR. ENERGY STAR staff said that all formula inputs are from the
         best available and/or peer reviewed data.

Formula Methodologies and Assumptions Need to Be Verified
         The spreadsheet used to calculate the energy savings for the commercial sector
         was not verified to ensure that its results are an accurate computation of energy
         savings attributable specifically to the ENERGY STAR commercial sector.
         ENERGY STAR plans to expand the use of this formula to compute energy
         savings for the industrial sector, so it is additionally important to verify and
         validate the formula’s results.

         The EPA Quality Manual for Environmental Programs CIO 2105-P-01-0
         (formerly 5360 A1) defines a peer review as:

                A documented critical review of work by qualified individuals (or
                organizations) who are independent of those who performed the
                work, but are collectively equivalent in technical expertise. A peer
                review is conducted to ensure that activities are technically
                adequate, competently performed, properly documented, and satisfy
                established technical and quality requirements. The peer review is
                an in-depth assessment of the assumptions, calculations,
                extrapolations, alternate interpretations, methodology, acceptance
                criteria, and conclusions pertaining to specific work and of the
                documentation that supports them.

         A peer review could accomplish two objectives. First, it could validate that the
         formula reasonably computes all energy savings. Second, it could provide
         assurance that savings are attributable to EPA’s ENERGY STAR commercial
         sector’s activities. The validation should be conducted in accordance with EPA
         Quality Manual for Environmental Programs CIO 2105-P-01-0.

Conclusion

         The methodology used to compute the ENERGY STAR commercial savings is
         based on unverified assumptions that impact the accuracy of the reported energy
         savings. The methodology is based on a study of the impact of all energy
         efficiency programs on electric demand, not only ENERGY STAR; it assumes
         that all net savings are attributable to the ENERGY STAR commercial program.
         EPA needs an independent assessment or validation of how ENERGY STAR
         savings are computed to establish a reasonable assurance that the energy saved is
         accurate.



                                          23 

                                                                                  09-P-0061



Recommendation
         4-1 	   We recommend that the Principal Deputy Assistant Administrator for the
                 Office of Air and Radiation validate the formula (methodology) used for
                 calculating the benefits of the ENERGY STAR commercial program in
                 accordance with EPA Quality Manual for Environmental Programs CIO
                 2105-P-01-0, to ensure that it accurately reflects the impacts of EPA
                 actions.

Agency Comments and OIG Evaluation

         EPA maintains that the estimates generated by the methodology are rigorous, that
         where marginal uncertainties are present they have been handled conservatively,
         and that the results are sound. EPA said that it will secure additional outside
         expert review of the entire methodology being used to estimate the benefits of the
         ENERGY STAR program in the commercial sector. The EPA action meets the
         intent of the recommendation; however the recommendation remains open until
         the completion of the expert review. The review should assure that assumptions,
         data sources, and methods used to estimate the ENERGY STAR commercial
         benefits savings are reasonable and supported. The Agency’s comments and our
         evaluation of those comments are in Appendix D.




                                         24 

                                                                                                                                          09-P-0061




                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                                POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1        Action Official             Date      Amount      Amount

    2-1      13     To improve the validity of reported annual savings       O            Principal Deputy
                    for the ENERGY STAR program, establish and                        Assistant Administrator,
                    perform quality controls to ensure that:                         Office of Air and Radiation
                      • Data in benefits calculations, whether from
                        partners or third parties, are timely, complete,
                        valid, and documented.
                      • The contractor and third party associations
                        receiving the manufacturer data submittal
                        forms reconcile submittals in a manner that
                        ensures the total annual shipments reported
                        by product category are accurate and reflect
                        actual numbers (not estimates) and are for
                        domestic shipments only.
                      • Agency officials improve contractor oversight
                        by obtaining actual support for annual
                        savings in a manner that demonstrates that
                        the numbers are valid and can be reconciled.
                      • Data in benefits calculations attributable to
                        DOE products should be clearly identified
                        and developed in consultation with DOE to
                        avoid redundancy.

    3-1      18     Develop and consistently apply a data-driven             O            Principal Deputy
                    methodology to compute the market transformation                  Assistant Administrator,
                    effect of all product categories and report the                  Office of Air and Radiation
                    benefits separately from ENERGY STAR-qualified
                    products.

    4-1      24     Validate the formula (methodology) used for              O            Principal Deputy
                    calculating the benefits of the ENERGY STAR                       Assistant Administrator,
                    commercial program in accordance with EPA                        Office of Air and Radiation
                    Quality Manual for Environmental Programs CIO
                    2105-P-01-0, to ensure that it accurately reflects
                    the impacts of EPA actions.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress



                                                                                 25 

                                                                                                                                                                                     09-P-0061


                                                                                                                                                                               Appendix A
                                        Logic Model for ENERGY STAR Products

                      Activities                        Outputs                                   Assessment/                      Intermediate                    Long Term
Resources
                                                        Reassessment                              Outcomes
                                                                                                                                  Outcomes
                Program Administration               Products

                -- Up to date product lists          -- # product categories




                                                                                 

                -- Up to date partner                -- # product models




                                                                            

                   information                       -- # product sales (annual)




                                                                                      

                -- Data collection on                -- market penetration

                                                                                                                                   Energy Savings
                   product shipments
                                                                                                                                   -- in kWh
                                                     Partners

                                                                                                                                   -- by product area
                                                     -- # manufacturers
                                                                                                                                   -- program level




                                                                            

                                                     -- # retailers                                                                                              Cleaner Air




                                                                  

                Build Supply of Efficient products   -- # program sponsors
                                                                                                                                   Reductions in GHG




                                                                                
 

                -- Add new products (using           -- # states and others                                                                                      Reduced Risk of
                                                                                                   Annual review of key outputs    emissions
                   established guidelines)                                                                                                                       Climate Change
                                                                                                   against program near, mid,      -- in mmtce
                                                     Partner activity
                                                                                                   and long term goals for         -- by product area
                                                     -- activity/investment by                                                                                   Improved Public Health
                                                                                                                                   -- program level




                                                                                  

                                                        retailers, program sponsors,               program and key product




                                                                                              

                                                        manufacturers                              areas and revision of
                                                                                                                                   Investment in technology      Cost Savings




                                                                        

                Revise Product Specs                                                               strategies, as appropriate
                -- as appropriate (using                                                                                           -- in $$
                                                     Outreach
                                                                                                   Institutionalized
 -Dollars          established guidelines)                                                                                         -- program level
                                                     -- # web visitors                                                                                           Behavior Change
 -Staff


                                                                        

                                                     -- key visitor interests

                                                                                                                                   Net Savings on Energy bills
                                                     -- # media impressions
                                                                                                                                   -- in $$



                                                                                 

                Build Demand -- Outreach             -- # media impressions by

                -- robust web-based info                                                                                           -- program level
                                                        key strategy and product
                -- consumer hotline
                -- direct consumer efforts                                                                                         Program Cost-effectiveness
                                                     Compliance/Quality

                -- key product strategies            -- # advertising clips
                                                                                                                                   Behavioral Change
                                                                            



                -- partner by partner                -- # companies advertising       

                    assistance                       -- # violations
                                                                                                                                   Improved Energy Efficiency
                                                                    





                -- coordinated national              -- # companies with
                                                                                                                                   Policies for Product
                                                                            





                    campaigns                            violations
                                                                                                                                   Efficiency
                                                                  





                -- train distribution channels       -- Indication of manufacturer
                                                                                          





                -- product procurement                   QA/QC issues

                                                     -- lighting fixture violations
                                                                                      





                                                     -- Indication of retailer issues
                                                                                          





                Ensure Quality
                                                     Brand Information
                -- require proper use of
                                                     -- level of consumer
                    logo in ads
                                                                            





                                                         awareness, understanding,
                -- spot test products
                                                                                          





                -- improve retail experience
                                                     etc
                                                        





                                                     Benefits Projections
                                                     -- estimates by product of
                                                                                      





                                                        future sales/benefits
                                                                                      





                Evaluation                              based on continued efforts

                -- consumer awareness,
                                           





                   understanding, etc

                -- progress assessments
                                          





    Source: ENERGY STAR program




                                                                                                  26
                                                                                                       

                                                                                                                                                           09-P-0061


                                                                                                                                                     Appendix B

           Logic Model for ENERGY STAR Commercial & Industrial Programs




                                                                                                                                        

Resources             Activities                      Outputs                         Assessment/               Intermediate                  Long Term




                                                                                                                                                                
 

                                                    Reassessment                      Outcomes                   Outcomes                      Outcomes
             Program Administration              Partners Committed to
             – Up to date partner                Improvements
                                                                                                             Energy Savings
              	




                 information                     -- # private sector organ
             --	 Maintain portfolio manager      -- # public sector                                          -- in kWh
                 and other key tools             -- # key sub sectors                                        -- program level
                                                 -- # states
             Build Demand -- Outreach            Partner activity                         Annual review of   Reductions in GHG              Cleaner Air
             -- robust web-based info            -- activity/investment by                key outputs        emissions
             -- customer hotline                    end-user partners, program                                                              Reduced Risk of
                                                                                          against program    -- in mmtce
             -- national campaign on                sponsors, third-party
                 building improvements              providers, etc
                                                                                          near, mid, and     -- by program level            Climate Change
             -- encourage state/local lead       -- number of ENERGY STAR                 long term goals
                 by example                         leaders                               for program and    Investment in technology       Improved Public
             -- web-based and other                                                       sales of key       -- in $$                       Health
                trainings for end-users          Standard Measurement System
                                                                                          products and       -- program level
-Dollars     -- recognition for excellence
                -- broad corporate leadership
                                                 -- # building types
                                                 -- % of market covered                   revision of                                       Cost Savings
-Staff          -- achieving key milestones      -- number of benchmarked                 strategies, as     Net Savings on Energy
                -- exemplary buildings              buildings, % of key subsectors        appropriate        bills                          Institutionalized
                                                    benchmarked, square footage
                                                    benchmarked                                              -- in $$                       Behavior Change
                                                 -- number of buildings labeled,                             -- program level
             Build Supply of Services               % of key subsectors labeled,
             -- partner with service                square footage labeled                                   Program Cost-
                providers
             -- train service providers on       Building Service Market                                     effectiveness
                benchmarking and other           -- # SSP partners
                ENERGY STAR resources            -- # third party providers of                               Behavioral Change
             -- partner with utilities; train;      benchmarking services
                and help develop programs        -- # trainings
                offering benchmarking.           -- number of benchmarks                                     Improved Energy
                                                     provided                                                Efficiency Policies for
                                                                                                             Building Efficiency
                                                 Outreach
             Ensure Quality                      -- # web visitors
             -- require proper use of            -- key visitor interests
                logo in ads                      -- # media impressions
             -- audit labeled buildings          -- number campaign participants

                                                 Compliance/Quality
                                                 -- # advertising clips
                                                 -- # companies advertising
                                                 -- # violations
                                                 -- # companies with
                                                    violations

     Source: ENERGY STAR program




                                                                                     27
                                                                                          

                                                                                        09-P-0061


                                                                                    Appendix C

                            Details on Scope and Methodology
To determine whether the savings reported for products and commercial ENERGY STAR
program sectors were valid and fully supportable, we analyzed supporting documentation for
2006 reported annual savings. We reviewed the ENERGY STAR and Other Climate Protection
Partnerships 2006 Annual Report (September 2007) and the U.S. Climate Action Report – 2006
for savings and benefits claims made by the program. We also reviewed relevant reports and
spreadsheets by Lawrence Berkeley National Laboratory and various contractors.

We conducted a review of the savings benefits for the products and commercial sectors, which
combined encompassed 81.6 percent of the 200624 reported carbon emissions avoided; we did
not conduct a detailed review of the residential and industrial sectors. To analyze the methods
used to calculate the annual savings by sector, we met with EPA ENERGY STAR officials and
the primary contractors involved. For the product sector, we obtained available support data and
documented the roles of both EPA and the contractor in the computation and methodology
process. Specifically, we requested the supporting documentation for the 2006 shipment totals
used in the savings benefit calculation for 2006 (as described in Chapter 2). We were provided
manufacturer shipment data submittal forms and shipment reports from third party associations.
We performed a detailed analysis and reconciliation of the manufacturer shipment data
submittals for all 2006 reported amounts by qualified ENERGY STAR product category. We
documented the forecasting methods for the other EPA product categories for which submission
of direct data shipment data was not required for 2006 reporting. We judgmentally selected a
sample of four qualified products based on a number of factors including: ENERGY STAR
shipment totals for 2006 and specification revision history. We traced and reconciled these four
qualified products through the Lawrence Berkeley National Laboratory CCAP model. These
products were computers, DVDs, external power supplies, and monitors.

For the commercial sector, we reviewed the methodologies used to calculate ENERGY STAR
reported benefits. We met with the contractor to obtain an understanding on how commercial
benefits are calculated. We also analyzed the contractor’s spreadsheet, containing the inputs and
assumptions used in calculating the 2006 commercial ENERGY STAR reported benefits.

To determine what management controls EPA had in place to ensure the validity and accuracy of
reported annual savings, we analyzed available data and met with EPA and contracting officials.
We reviewed the OAR (Office of Air and Radiation) Climate Protection Partnerships Division’s
ENERGY STAR Performance Management Plan. Our review included a detailed follow-up with
the ENERGY STAR Director on plan specifics. We met with the contractor involved in
implementing the plan to determine the role quality assurance/quality control plays in its work in
the computation process. We also analyzed some of the controls/procedures within the plan to
verify whether they were applicable and had been adequately performed as described within
Chapter 2. All internal control weaknesses noted during our evaluation are discussed in
Chapters 2, 3, and 4 of this report.

24
     At the time of our evaluation, 2006 was the most current data available.


                                                            28 

                                                                                   09-P-0061




To determine the basis for goal setting, we meet with ENERGY STAR staff and reviewed the
program’s logic models. We also reviewed recent U.S. Climate Action Reports, Guidelines for
Designing EPA Partnership Programs, Government Performance Results Act of 1993, and the
Energy Policy Act of 2005.




                                             29 

                                                                                        09-P-0061


                                                                                    Appendix D


              Agency Comments and OIG Evaluation
MEMORANDUM

SUBJECT:       Response to Draft Evaluation Report: Improvements Needed to Validate Reported
               ENERGY STAR Benefits: Project No. 2007-0081

FROM:          Robert J. Meyers
               Principal Deputy Assistant Administrator

TO:            Jeffrey Harris
               Director for Special Studies
               Office of the Inspector General


        We appreciate the opportunity to review the OIG’s draft report on the benefits of the
ENERGY STAR program and their recommendations for improving the benefit estimation
methods OAR employs. OAR has or will address two of the three recommendations and asks
that the third recommendation be removed.

       OAR maintains a strong commitment to using and continually improving the methods it
employs to provide robust estimates of the benefits of the ENERGY STAR programs. In this
context, OAR will proceed to address the OIG recommendations, where they have not already
been addressed.

OIG Response: OIG understands the ENERGY STAR program reports estimates. The
statement that, “More than 37 million metric tons of greenhouse gas emissions were avoided,
equivalent to the greenhouse gas emissions from 25 million vehicles,” does not disclose that
reported program benefits are robust estimates. The other reportable program benefits are
reported in a similar matter.


        OAR is very concerned about the tone and exaggeration of issues in the OIG report as
well as the general implication that OAR’s estimates of ENERGY STAR program benefits are
not valid. OAR stands by the validity of the reported estimates of the ENERGY STAR program
benefits.
    •	 OAR methods and procedures conform to Agency policy and guidance.
    •	 OAR employs peer-reviewed methods and appropriate QA/QC procedures.
    •	 OAR approaches are consistent with well-documented best practices for developing
        estimates of the benefits of energy efficiency programs.
    •	 OIG did not identify any issues that have a significant impact on the reported results for
        the ENERGY STAR program.




                                                 30 

                                                                                          09-P-0061



 OIG Response: OIG reported that the data used to calculate benefits was inaccurate
 and unsupported; therefore we could not attest to the overall validity of the actual
 reported numbers. For the product and commercial program sectors we documented
 how benefits were calculated, evaluated the supporting data, and outcome of EPA’s
 calculations with the claimed impacts. In our opinion there were numerous
 deficiencies in the processes and data supporting the benefit calculations.


It is important to understand that program benefit estimates are estimates. Such estimates are
routinely based on available data and reasonable assumptions. OAR employs conservative
estimates for assumptions where there is a lack of available data and some uncertainty.

       Further, OAR does not believe that the OIG identified any issues that have a significant
impact on the reported results for the ENERGY STAR program. The OIG review of the
ENERGY STAR benefits calculations was narrowly focused on several issues and processes. In
addition, there are important inaccuracies in the OIG report and misunderstandings of the
methods that OAR employs (see supporting information).

 OIG Response: It is the OIG’s opinion that the Agency approach for estimating program
 benefits is not conservative. For example, we do not believe that the Agency’s use of the
 market transformation effect is a conservative approach. The OIG takes no position on the
 validity of the market transformation effect, but we disagree with the methodology used by the
 Agency to compute this effect. An additional issue we noted was the lack of disclosure in the
 annual report. Benefits derived from the market transformation are not identified in the annual
 report and are included along with benefits from ENERGY STAR qualified products.

 Furthermore, the OIG’s objective was to determine the validity of the ENERGY STAR benefit
 calculations. We conducted a comprehensive review of the methodology, data, and analysis
 used by EPA to calculate over 80 percent of the ENERGY STAR reported carbon emissions
 avoided in 2006. We found deficiencies in the design, data, and execution of the benefit
 calculations. We did not attempt to quantify the net numerical impact of these deficiencies.
 OIG believes that the net impact of reported deficiencies may be significant. For example,
 when calculating individual consumer product benefits if the initial data shipment numbers are
 unsupported or inaccurate, not only is the benefit calculation for that current year invalid but the
 subsequent calculation of benefits are impacted over the lifetime of that product category. As
 noted in the Agency’s peer reviewed article:

         We implement the bottom-up model with awareness that uncertainty for each product
         type contributes to uncertainty in total ENERGY STAR impacts. This means that many
         small inaccuracies are additive overall and any one inaccuracy for a product type with
         large energy savings can significantly affect the overall results.

 We do not agree that the OIG report contains inaccuracies. The Agency’s response did not
 provide evidence in support of this statement.




                                                31 

                                                                                         09-P-0061


The result of the OIG review is that
   •	 The OIG identified several ways for OAR to improve its documentation of data and
       QA/QC procedures, steps that OAR has already or will undertake this coming year.
   •	 The OIG questions an approach that OAR uses to represent the market transformation
       benefits of the ENERGY STAR product labeling program; however, because this
       approach is a well accepted practice, has been peer-reviewed, addresses the uncertainty in
       a conservative manner, and represents about 2 percent of overall program benefits, OAR
       does not believe a change is necessary.
   •	 The OIG identified two addition errors that would serve to increase the ENERGY STAR
       program benefits for 2006 by about 1 percent. These errors have been corrected.

 OIG Response: OIG does not agree with the above assessment of the results of the OIG’s review.
 The supporting information OAR provided in this response will be addressed by each subject as
 deemed necessary.


In addition, the OIG made three recommendations to improve the methods and processes OAR
uses for estimating the annual benefits for the ENERGY STAR program. These
recommendations and OAR’s responses are provided below.

Recommendation 2-1 To improve the validity of reported annual savings for the ENERGY
STAR program, we recommend that the Principal Deputy Assistant Administrator for the Office
of Air and Radiation establish and perform quality controls to ensure that:

•	   Data in benefits calculations, whether from partners or third parties, are timely, complete,
     valid and documented.
•	   The contractor and third party associations receiving the manufacturer data submittal forms
     reconcile submittals in a manner that ensures the total annual shipments reported by product
     category are accurate and reflect actual numbers (not estimates) and are for domestic
     shipments only.
•	   Agency officials improve contractor oversight by obtaining actual support for annual
     savings in a manner that demonstrates that the numbers are valid and can be reconciled.
•	   Data in benefits calculations attributable to DOE products should be clearly identified and
     developed in consultation with DOE to avoid redundancy.

     OAR Response: OAR addresses the quality of annual shipment numbers used for
     ENERGY STAR benefits calculations through a systematic review and improvement of the
     data submitted based on additional follow up with reporting manufacturers. There are clear
     deadlines for the reporting of data and ramifications for partners not reporting data by these
     deadlines. Estimates and international shipments, while collected in a few limited cases,
     are not used as part of estimating annual program benefits. Documentation of these
     requirements, data submittal timelines and penalties for not meeting them is available at
     www.energystar.gov/usd.




                                                32 

                                                                                        09-P-0061




 OIG Response: OIG evaluated the existing process. The findings show that the process used to
 collect and verify the data was deficient and needs improvement. Corrective action may include
 improved implementation and oversight of the existing process as well as new procedures. For
 example, we found large discrepancies in the shipment data used in the benefits calculation for
 exit signs and monitors. The table provided by the Agency not only acknowledges errors
 occurred, but validates the lack of a quality control system. The large “spreadsheet errors,”
 uncorrected until disclosed by OIG, demonstrate deficiencies in the existing Quality
 Assurance/Quality Control process. Additionally, at the time of our review, estimates of
 shipment totals were used for both office products and for programmable thermostats in
 calculating annual benefits.


    Status: Suggest removing the first two bullets. The remaining two recommendations have
    been addressed: 1) The EPA contractor has been directed to fully document the data
    collection and review process for product shipment data for 2007 and subsequent years.
    This has been completed for 2007 2) For the future, EPA has removed the benefits
    estimates attributable to EPA efforts with compact fluorescent lighting (CFL) products as of
    the 2007 program benefits estimates and will only reintroduce these benefits after
    appropriate coordination with DOE.

 OIG Response: OIG does not agree with the removing of the first two bullets. Further, the
 Agency’s corrective action plan will need to address the shortcomings related to improving
 contractor oversight. The Agency should identify improvements in management controls over
 the existing process. OIG identified deficiencies with the process of collecting, reviewing, and
 reporting product data shipment information both from third parties or actual manufacturers.
 The status of the recommendations reported by the Agency does not meet the intent of the
 recommendation. This recommendation is open and unresolved.

Recommendation 3-1 We recommend that the Principal Deputy Assistant Administrator for the
Office of Air and Radiation develop and consistently apply a data-driven methodology to
compute the market transformation effect of all product categories and report the benefits
separately from ENERGY STAR-qualified products.

    OAR Response: Calculating market transformation benefits is a widely accepted concept
    within the energy community and is a meaningful indicator of the ongoing effect of
    ENERGY STAR in the market. The current methodology for calculating market
    transformation benefits has been peer reviewed (see below) and is applied consistently
    across the product categories, where applicable. Further, the market transformation effect
    accounts for a small fraction of overall ENERGY STAR program savings (e.g. less than 2
    percent), meaning that uncertainty in the data and assumptions behind the calculations
    (uncertainty that has already been addressed through conservative assumptions) have a
    relatively low impact on overall modeled results.

    Method has been peer reviewed in the journal Energy Policy:


                                               33 

                                                                                           09-P-0061




               Sanchez, Marla C., Richard E. Brown, Carrie Webber, and Gregory K. Homan.
               2008. Savings estimates for the United States Environmental Protection Agency's
               ENERGY STAR voluntary product labeling program. Energy Policy. vol. 36, no.
               6, pp. 2098-2108

   OIG Response: OIG did not question the concept, only the Agency’s methodology and data
   sources used to compute benefits for ENERGY STAR. The methodology and data used to
   calculate ENERGY STAR market transformation benefits has not been validated.
   Additionally, the peer reviewed article includes a limitations section which provides the
   following:

          These limitations mean that collecting and documenting high-quality inputs is
          essential, which can be a labor-intensive and expensive process. As a result,
          identifying areas of critical uncertainty and sensitivity and then targeting
          data collection and verification activities at those areas is key to successful
          results. [Emphasis added]

   The OIG evaluated reported benefits incurred in 2006. For 2006, the market transformation
   effect was 6 percent of the reported benefits for the product category. The significance of
   savings from the market transformation calculation can vary depending on the number of new
   specifications in a year, as well as the reported shipment totals. We do not consider using
   unsupported shipment totals to compute benefit savings in the market transformation
   calculation a conservative assumption. Furthermore, the OIG analysis does not take into
   account the reported savings that can be realized in future years since these units will be
   counted for their expected product life.


       Status: Since, the OIG has not provided a basis for recommending a change in
       methodology, particularly in light of the complexity and cost associated with doing so,
       OAR suggests removing this recommendation.

   OIG Response: It is the OIG’s opinioin that the computation of the market transformation
   effect requires identifying areas of critical uncertainty and sensitivity and then targeting data
   collection and verification activities at those areas for successful results. That has not been
   done. While the benefits calculated from market transformation make up 6% of the product
   savings, given the downturn in the economy and changes to major consumer products (like
   DVDs) the impact of a market transformation calculation is likely to grow larger. This
   recommendation is open and unresolved.

Recommendation 4-1: We recommend that the Principal Deputy Assistant Administrator for
the Office of Air and Radiation validate the formula (methodology) used for calculating the
benefits of the ENERGY STAR commercial program in accordance with EPA Quality Manual
for Environmental Programs CIO-2105-P-01-0, to ensure that it accurately reflects the impacts of
EPA actions.



                                                 34
                                                                                       09-P-0061


       OAR Response: OAR's approach to estimating the benefits of the ENERGY STAR
       program in the commercial sector has evolved as the program has expanded and adopted
       up-to-date econometric analysis and information. Each refinement has been reviewed by
       outside experts. OAR believes that the estimates generated by the methodology are
       rigorous, that where marginal uncertainties are present they have been handled
       conservatively, and that the results are sound. OAR’s program benefits estimates are
       performed in accordance with the EPA Quality Manual as the Office of Atmospheric
       Programs has established a Quality Management Plan and these benefits estimates have
       been developed in accordance with that plan.

 OIG Response: The peer reviewed methodology does not directly support Office of Air and
 Radiation’s claimed benefits for the ENERGY STAR commercial sector. EPA uses parts of that
 methodology to derive the estimated benefits for commercial sector. The actual computation
 methodology used needs to be validated.

       Further, OAR recommends that the title for Chapter 4 be modified to be “Further
       Validate Commercial Sector Methods

 OIG Response: The OIG believes the current title accurately reflects the content of the chapter.


       Status: OAR will secure additional outside expert review of the entire methodology
       being used to estimate the benefits of the ENERGY STAR program in the commercial
       sector. We can provide the OIG for a schedule for this review within two months.

 OIG Response: The Office of Air and Radiation action meets the intent of the recommendation.
 The expert review should assure that assumptions, data sources, and methods used to estimate the
 ENERGY STAR commercial benefits savings are reasonable and supported.


Supporting Information

OAR has identified a number of errors in the OIG report and several important
misunderstandings in the OIG report as detailed below.

2006 Annual Shipment Data

OAR has reviewed the table the OIG presented in its draft report showing that it could not
reproduce the 2006 product shipment totals in a July 2007 ICF report for 18 of the 29 product
categories that it examined. OAR looked at eleven of the eighteen product categories that the
OIG examined, the ones which would potentially have the most significant impact on the 2006
stated program results due to the size of the differences in the OIG table. OAR has the following
observations based on its review (see attached summary table):
•	 OAR has confirmed the validity of the shipment numbers used in the 2006 benefits
    calculation for nine of the eleven product categories OAR examined.


                                               35 

                                                                                       09-P-0061


•	 The differences that the OIG found are largely explained by the OIG not completing the
   QA/QC process that is in place to review and improve the raw submittal data.
•	 Two computational errors were uncovered as a result of the audit. These two errors serve to
   increase the ENERGY STAR program benefits and together represent a small fraction (about
   1%) of the programs overall reported benefits. These errors have been corrected.
•	 The OIG findings do not support the broad claim that the ENERGY STAR program benefits
   are invalid.

 OIG Response: The Agency provided no additional documentation or support for its
 analysis, so we cannot comment on its accuracy. However, given the quality of the
 documentation supporting ENERGY STAR benefit calculations, OIG understands Office of
 Air and Radiation’s difficulty. OIG analysis and numbers were based on the documentation
 provided by the EPA contractor tasked with reporting these numbers. In fact, we met with the
 contractor concerning this issue and it was unable to provide us with any further
 documentation that would change any of our reported numbers or discrepancies. Our detailed
 analysis identified large inaccuracies in the reported shipment totals used and in what the
 actual shipment data supported for products such as exit signs and monitors. The Agency’s
 table provided in this response acknowledges that there were in fact “spreadsheet errors” for
 both products and the numbers should have been the much larger number as identified by the
 OIG. These two “spreadsheet errors” demonstrate deficiencies with the existing Quality
 Assurance/Quality Control process since large errors were not identified. The errors were
 reported by the OIG. The Agency work was done after the fact, in an attempt to verify the
 original numbers. It should also be noted that the underestimates were already used in the
 2006 benefits calculations process and were already reported within the Annual Report.




Further, OAR disagrees with the characterization of the OIG in a number of other areas in the
report and provides the following clarifications.

Quality Review of Data. OAR’s contractor responsible for collecting and compiling shipment
data performs a systematic review of all shipment reports that looks for and addresses a number
of potential issues. The contactor has been directed to document the results of this quality
review. The issues the contractor addresses include:

     •	 Multiple submissions received from a single partner
     •	 Inclusion of a partner's data in an aggregate submission from an association, when the
        partner had already reported to contractor directly
     •	 An apparent math error on the data collection form
     •	 Submission of shipment data for a product that cannot earn the ENERGY STAR, e.g.,
        qualified shipments reported for ENERGY STAR camcorders
     •	 Submission of data on a non-standard form, e.g., a NYSERDA form
     •	 Indication that reported, qualified shipments went to a private labeler, who was also
        required to report
     •	 Alteration of the standard form, e.g., partner modification of units of measure


                                               36 

                                                                                         09-P-0061


     •	   Failure of the partner to break data into requested subcategories
     •	   ENERGY STAR qualified shipments exceeding total shipments
     •	   Indication that the submission is only an estimate
     •	   Indication of negative shipments for a partner
     •	   A partner's claim of qualified shipments for a product they do not manufacturer, have
          not yet qualified with ENERGY STAR, or for which they’ve not partnered with
          ENERGY STAR.

     In addition to working with partners and third party associations to resolve data anomalies,
     the contractor performs the following steps to improve the quality of the report:
     •	 Reviews past year’s process recommendations and reviews with EPA if any changes
          are needed to solicit the most accurate information from partners in the clearest way.
     •	 Shares information including contact lists with third party associations well in
          advance, to ensure that all eligible partners contribute to the collection effort.
     •	 Contractor product leads review submitted data for their respective categories to flag
          any apparent discrepancies or unexpected changes from previous years.
     •	 Task Order Manager checks data entry, calculations, and consistency among summary
          and breakout tables.

The EPA contractor has been directed to fully document the data collection and review process
for product shipment data for 2007 and subsequent years. This is complete for 2007.


 OIG Response: If the Quality Assurance/Quality Control system the Agency summarizes in
 this section was implemented and enforced as the Agency implies then the errors we identified
 would have been caught by either the contractor or EPA. The Quality Assurance/Quality
 Control process existing at the time of the OIG’s review was deficient as demonstrated by the
 errors identified in the report. Many of these steps were either not in place or had not been
 implemented during our review. We were advised by the EPA contractor that follow-up
 actions were not always documented, which may have contributed to the discrepancies in
 shipment totals used in the benefit calculations. The EPA contractor told us that the third party
 reporting was inconsistent, lacked uniformity, and information was often submitted late.

•	 Data Submitted Through Third Parties. The ENERGY STAR partnership agreement
   explicitly allows for the submittal of shipment data through a third party aggregator in the
   event a partner has competitiveness concerns associated with releasing data. OAR’s
   contractor works closely with the relevant trade associations to ensure that any potential data
   issues are resolved as the data is compiled. This is an appropriate and necessary practice to
   employ as part of collecting information for a partnership program.




                                                37 

                                                                                          09-P-0061




   OIG Response: OIG took no position on the use of third parties. OIG identified
   deficiencies with the reporting of the data received by the contractor. The contractor
   recognized there were problems with the third party association data submittals. We were
   told that it was the contractor’s practice to accept the third party reported numbers even if a
   manufacturer had self-reported a different set of numbers.


•	 International Shipments. The OIG did not provide any credible basis for OAR to question
   that shipment totals used in the benefits calculations include anything but U.S. shipments. In
   fact, the two instances cited give no indication other than that the submitter clearly
   understood the request to be for U.S. data alone. OAR does not use international shipment
   information to estimate program benefits.

   OIG Response: OIG provided examples of potential control issues with accounting for
   international shipments.

Compact Fluorescent Light (CFL) Bulbs

OAR estimated benefits from EPA efforts with compact fluorescent light bulbs. EPA has made
important contributions to the area of ENERGY STAR CFLs for more than eight years. This
includes contributions to key aspects of the ENERGY STAR specification for CFLs, quality
testing for CFLs, and ramping up consumer awareness and interest in purchasing ENERGY
STAR qualifying CFLs. EPA has removed these benefits from its ENERGY STAR program
benefits as of 2007.

   OIG Response: OIG reported that EPA and DOE were both claiming the CFL benefits
   which results in double counting of the greenhouse gas savings. OIG did not question
   EPA’s contribution to CFLs. We agree that removal of the CFL benefits until they are
   discussed with the appropriate DOE officials is the appropriate action.


Market Transformation Effect

OAR employs a widely accepted concept within the energy community for estimating the market
transformation benefits of the ENERGY STAR program. This captures the set of products in the
marketplace, that are more efficient than they otherwise would have been, that were once eligible
for the ENERGY STAR, but are no longer due to increased stringency of the ENERGY STAR
specification. The current methodology for calculating these market transformation benefits has
been peer reviewed in the journal Energy Policy:

       Sanchez, Marla C., Richard E. Brown, Carrie Webber, and Gregory K. Homan. 2008.
       Savings estimates for the United States Environmental Protection Agency's ENERGY
       STAR voluntary product labeling program. Energy Policy. vol. 36, no. 6, pp. 2098-2108.




                                                38 

                                                                                        09-P-0061


The method is applied consistently across the product categories for which an ENERGY STAR
specification has been revised and a substantial number of products are still in the market that
met the earlier specification. Further, the market transformation effect accounts for a small
fraction of overall ENERGY STAR program savings (about 2%). This means that uncertainty in
the data and assumptions behind the calculations (uncertainty that has already been addressed
through conservative assumptions) has a relatively low impact on program estimates.
Accordingly, the OIG has not provided a basis for recommending a change in methodology,
particularly in light of the complexity and cost associated with doing so.

 OIG Response: The method is not applied consistently across the product categories. The
 computation for market transformation is only used when shipment of units falls after a
 specification change. The market transformation concept as stated would also apply to units
 that increased in sales after a specification, which has occurred, but there was no computation
 of the savings derived from these units. The ENERGY STAR contractor’s formula does not
 account for market transformation savings for units that increase after a specification change.

 Furthermore, the OIG believes the savings reported from the market transformation units have
 a potential to significantly impact reported savings. We do not consider knowingly reporting
 unsupported and possibly incorrect data as a conservative practice even if it were properly
 disclosed, which is not done in ENERGY STAR reports. The number of formerly qualified
 units used in the computation is derived from reported shipments of ENERGY STAR qualified
 units. There is no actual relationship, it is an assumption. The result is a flawed process that
 will produce an inaccurate result, particularly given current economic conditions.

                  July 2007                  Summer
                                 OIG
                   Report                     2008                           Notes
                                 Total
                    Total                    Review*
                                                         Reported values add up to 382,770.
Boilers            382,770      405,573       382,770
                                                         No underestimation.
                                                         OIG appears to have
                                                         • excluded one manufacturer’s data, because
                                                           their brand name, rather than their
                                                           manufacturer name, was listed on their
                                                           reporting form which ICF addressed through
                                                           their QA/QC process
Commercial                                               • excluded another manufacturer’s data because
Refrigerators/      83,493      106,658       83,493       the company was not on the list of partners
Freezers                                                   required to submit data, though this was
                                                           addressed by ICF through their QA/QC
                                                           process
                                                         • Included one manufacturer’s reported data
                                                           that was excluded as a result of the ICF
                                                           QA/QC process.
                                                         No underestimation.
                                                         Reported values add up to 1,203,216.
Dehumidifiers     1,203,216     776,431      1,203,216
                                                         No overestimation.



                                               39 

                                                                                      09-P-0061


                                                       Spreadsheet error. Compiled number should
Exit Signs      1,425,554    3,450,117    3,460,176    have been 3,460,176. This underestimate has
                                                       been corrected in subsequent analysis
                                                       OIG appears to have excluded data that was
                                                       reported by one furnace manufacturer on their
Furnaces        1,172,843    1,170,124    1,172,843    air-source heat pump data form which was
                                                       addressed through the QA/QC process.
                                                       No overestimation.
                                                       Spreadsheet error. Compiled number should
Monitors        13,859,666   34,581,203   32,584,882   have been 32,584,882. This underestimate has
                                                       been corrected in subsequent analysis
                                                       Shipments reported by one company were
Roof Products
                                                       inadvertently not included. ICF number should
(Commercial     21,352,516   15,966,045   21,358,657
                                                       have been 21,358,657.
Gallons)                                               No significant effect.
                                                       OIG appears to have included one
Room Air                                               manufacturer’s reported data that was excluded
                 287,354      289,815      287,354
Cleaners                                               as a result of the QA/QC process.
                                                       No underestimation.
                                                       OIG appears to have
                                                       • excluded one manufacturer’s data because
                                                          their brand name(s) rather than their
                                                          manufacturer name was listed on their
                                                          reporting forms which ICF addressed through
Transformers     173,390      166,669      173,390        their QA/QC process
                                                       • chosen to use data from one of the two forms
                                                          submitted by one manufacturer whereas ICF
                                                          confirmed with the manufacturer that the
                                                          other form was the correct one.
                                                       No overestimation.
                                                       Shipments reported by one company for one
                                                       product type (TV/VCR combination units) were
TV/VCR          17,685,967   13,166,140   17,689,230   inadvertently not included. ICF total should
                                                       have been 17,689,230.
                                                       No significant effect.
                                                       OIG appears to have
                                                       • included one manufacturer’s reported data
                                                            that was excluded as a result of the QA/QC
Ventilating                                                 process
                 853,406      857,232      853,406
Fans                                                   • included incorrect data for one company that
                                                            had been addressed through ICF’s QA/QC
                                                            process.
                                                       No underestimation.




                                            40 

                                                                                       09-P-0061


* Re-examination of what shipment totals were supportable based on manufacturer information
provided as of May 2007.


 OIG Response: The OIG analysis was based on the documentation used to produce EPA’s
 report of ENERGY STAR benefits in 2006. We do note that the Agency’s analysis does not
 address all the irreconcilable products as reported on by the OIG within Chapter 2, Table 2-1.
 Based on the Agency's chart provided, the Agency only reviewed 11 of the 18 products and thus
 the Agency's analysis does not address the differences noted for the following product categories:

     •	   Audio/DVD
     •	   Commercial Hot Food Holding Cabinets
     •	   End Use Products
     •	   External Power Supplies
     •	   Residential Light Fixtures
     •	   Roofing Commercial & Residential Sq. Ft.
     •	   Telephony




Commercial Program Methodology (Addressed in Chapter 4 of OIG Report)

OAR uses best available information to estimate program benefits in the commercial market and
updates the methodology and inputs as the program evolves and new information is made
available. These methods can be summarized as follows:

•	 Program estimates are based on well-documented peer-reviewed methods.
•	 The data inputs are either peer-reviewed or publicly available data themselves or based on
   reasonable and well-documented assumptions.
•	 In areas of marginal uncertainty, OAR applies program evaluation best practice methods to
   avoid overstatement of program benefits.
•	 The current program benefits estimation method includes techniques to account for the
   energy savings from commercial products associated with information processing and related
   equipment used by businesses. The method was peer-reviewed, found to be appropriate and
   sounds, and published in a 2007 Energy Journal article.
•	 The current program benefits estimation method also includes techniques to account for
   benefits from energy efficiency programs across the country. The approach of subtracting
   state-utility savings from the national total was peer-reviewed and published in a 2001
   Energy Journal article.

OAR disagrees with the OIG characterization of the methods used to avoid double-counting with
federal programs like ENERGY STAR qualified products and DOE’s Building Technologies
Program (BTP) as “unclear” and “questionable.” Again, these methods have been peer-
reviewed by experts in the field and found to be sound and appropriate.



                                               41 

                                                                                 09-P-0061


OAR continues to improve the models it uses to estimate ENERGY STAR program benefits.
OAR will undertake another peer-review of the overall approach and its key elements.

 OIG Response: The peer-reviewed methodology referenced by the Office of Air and
 Radiation does not directly support the claimed benefits for the ENERGY STAR commercial
 sector. The contractor who prepares EPA’s estimate uses parts of the methodology in its
 computation of the benefits. The contractor’s computation of estimated benefits for
 commercial sector is what needs to be validated.




                                           42 

                                                                              09-P-0061


                                                                            Appendix E


                                    Distribution

Office of the Administrator
Principal Deputy Assistant Administrator, Office of Air and Radiation
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Air and Radiation
Deputy Inspector General




                                             43 

